HHS/OIG, Audit -"Review of West Virginia's Accounts Receivable System for Medicaid Provider
Overpayments,"(A-03-04-00207)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of West Virginia's Accounts Receivable System
for Medicaid Provider Overpayments," (A-03-04-00207)
June 27, 2005
Complete
Text of Report is available in PDF format (627 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was part of a multistate audit focusing on States accounts receivable systems for Medicaid
provider overpayments.  Our objective was to determine whether the State agency reported Medicaid
provider overpayments in accordance with Federal requirements.  The Department of Health and Human
Resources did not report overpayments totaling $3,774,106 ($2,940,469 Federal share) to CMS because
it was waiting to implement changes to its Medicaid Management Information System and did not report
overpayments totaling $3,280,807 ($2477,041 Federal share) within the required timeframe because of
an oversight and because it did not use the correct date of discovery.  This nonreporting and
untimely reporting also potentially resulted in approximately $20,000 in higher interest expense to
the Federal Government.
We recommend that the Department of Health and Human Resources: (1) include unreported overpayments
totaling $3,744,106 on the CMS-64 and refund the $2,940,469 to the Federal Government, (2) determine
the value of overpayments identified after our audit period that have not been reported and include
them on the CMS-64, and (3) ensure that all future overpayments are reported within 60 days in accordance
with Federal regulations, thereby mitigating the potentially higher interest expense to the Federal
Government.